PRICING INFORMATION
As of June 30, 2021
Annual Percentage Rate (APR)
for Purchases

0% introductory APR for one year (which is a daily periodic rate of 0%).
After that, the APR will be 29.9% (which is a daily periodic rate of
.08191%). This APR will vary with the market based on the Prime Rate
plus a margin of 26.65 percentage points.

APR for Cash Advances and
Balance Transfers*

29.9% (which is a daily periodic rate of .08191%).
This APR will vary with the market based on the Prime Rate plus a
margin of 26.65 percentage points.

Paying Interest

Your due date is at least 21 days after the close of each billing cycle. We will
not charge you any interest on purchases if you pay your entire balance by
the due date each month. We will begin charging interest on cash advances
and balance transfers on the transaction date.

Minimum Interest Charge

If you are charged interest, the charge will be no less than 50¢.

Annual Fee

No annual fee for one year, then $25 if your credit limit is less than $1,000
and $55 if your credit limit is equal to or greater than $1,000

Transaction Fees
 Balance Transfer
 Cash Advance

Either $3 or 3% of the amount of each transfer, whichever is greater
Either $3 or 3% of the amount of each cash advance, whichever is greater

Penalty Fees
 Late Payment
 Returned Payment

Up to $40
Up to $40

Variable Rate Information

The APR is a variable rate (other than on the Average Daily Balance of
purchases for the period beginning on the date your account is open until
the last day of the twelfth billing cycle after your account is open) and will
be adjusted according to the Index Rate. The Index Rate is the Prime Rate
published in The Wall Street Journal on the last business day of the month
immediately preceding the month in which the billing cycle commences.
The daily periodic rate is determined by dividing the APR currently in
effect by 365, and then truncating that number to the nearest one hundred
thousandth percent. The rate so determined will remain in effect until the
first day of the next billing cycle, when it will be adjusted again. An
increase in the Index Rate may result in an increase in the minimum
monthly payment. The APR on the Average Daily Balance of purchases
obtained after the last day of the promotional period and on the Average
Daily Balance of cash advances will decrease if there is a decrease in the
Index Rate.

How We Will Calculate Your
Balance

We use a method called “average daily balance (including new
transactions).” We figure the interest charge on your account by
multiplying the applicable daily periodic rate by the “Average Daily
Balance” of purchases and “Average Daily Balance” of cash advances and
then multiplying the products by the number of days in the billing cycle.
To get the “Average Daily Balance” of purchases, we start with the
beginning balance of purchases on your account each day, including billed
and unpaid interest charges related to purchases, and add any new
purchases and other debit adjustments and subtract any payments or credits.
This gives us the daily balance. At the end of each day, we multiply the
daily balance by the daily periodic rate. The result is then added to the
daily balance to determine the next day’s beginning balance. If the daily
balance is negative, then it is considered to be zero. At the end of the
statement period, we add up all the daily balances for the billing cycle and
divide by the total number of days in the billing cycle to get the “Average
Daily Balance” of purchases. To get the “Average Daily Balance” of cash
advances, we start with the beginning balance of cash advances on your
account each day, including billed and unpaid interest charges related to
cash advances, and add any new advances and other debit adjustments and
subtract any payments or credits. This gives us the daily balance. At the
end of each day, we multiply the daily balance by the daily periodic rate.
The result is then added to the daily balance to determine the next day’s
beginning balance. If the daily balance is negative, then it is considered to
be zero. At the end of the statement period, we add up all the daily
balances for the billing cycle and divide by the total number of days in the
billing cycle to get the “Average Daily Balance” of cash advances.

*Balances transferred from another credit card account are treated for all purposes as a cash advance.

